USCA11 No,: 19-13189
IN THE
SUPREME COURT OF THE UNITED STATES

MARGUERITE SMTIH,
Petitioner,
vs.
SECRETARY OF VETERANS AFFAIRS, et al
Respondents)

On Petition for
A WRIT OF CERTIORARI to the United States Court of Appeals
for the 11th Circuit

INDEX TO APPENDICES
Docket Case # 3:19-cv-0G161-BJD-JRK
Docket Case # 3:19-cv-01420-BJD-JBT

Respectfully submitted,

j

Marguerite Smith

/

10522 Maidstone Cove Drive
Jacksonville, FL 32218
(904) 609-5779
mmgsmithl l@gmail.com

**

Electronic Case Filing | U.S. District Court - Middle District of Florida

Page 1 of2

U.S. District Court
Middle District of Florida (Jacksonville)
CIVIL DOCKET FOR CASE #: 3:18-cv-01420-BJD-JBT
Internal Use Only

Smith v. Watson et al
Assigned to: Judge Brian J. Davis
Referred to: Magistrate Judge Joel B. Toomey
Demand: $9,999,000
Cause: 42:1983 Civil Rights Act
Plaintiff
Marguerite Smith
Widow

represented by Marguerite Smith
10522 Maidstone Cove Drive
Jacksonville, FL 32218
904-609-5779
PROSE

V.
Defendant
Jay B. Watson
in his individual capacity
TERMINATED: 12/11/2018
Defendant
Mark H. Mahon
in his individual capacity
Date Filed

Date Filed: 11/30/2018
Jury Demand: Plaintiff
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question

I CERTIFY THE FOREGOING TO BE A TRUE
AND CORRECT COPY OF THE ORIGINAL
CLERK OF COURT
UNITED STATES DISTRICT COURT
MIDDLBOISTRICTOJfLORIDA
BY:
DEPUTY GLeRls”"

Docket Text

#

11/30/2018

1

COMPLAINT against Mark H. Mahon, Jay B. Watson with Jury Demand
Filing fee $ 400.00, receipt number JAX029619 filed by Marguerite Smith.
(Attachments: # ! Exhibit, # 2 Civil Cover Sheet)(AEJ) Modified on
12/4/2018 - STRICKEN per Court Order, Doc. 3. (AEJ) (Entered:
11/30/2018)

11/30/2018

2

SUMMONS issued as to Mark H. Mahon, Jay B. Watson. (AEJ) (Entered:
11/30/2018)

12/03/2018

3

ORDER STRIKING 1 Complaint. No later than December 17,2018,
Plaintiff shall file an amended complaint consistent with the directives
of this order. Failure to do so may result in dismissal of this action.
Signed by Judge Brian J. Davis on 12/3/2018. (AMP) (Entered:
12/03/2018)

12/05/2018

5 RETURN of service executed on 12/3/18 by Marguerite Smith as to Mark

https://ecf.flmd.cird l.dcn/cgi-bin/DktRpt.pl?607073398702511-L_l_0-l

1/18/2019

*"

^"Electronic Case Filing | U.S. District Court - Middle District of Florida

Page 2 of2

H. Mahon, Jay B. Watson. (AEJ) (Entered: 12/12/2018)
AMENDED COMPLAINT against Mark H. Mahon with Jury Demand.
Terminating Jay B. Watson (in Ms individual capacity) filed by Marguerite
Smith. (Attachments: # ! Exhibit)(PAM) (Entered: 12/11/2018)

12/11/2018

4

01/15/2019

6 NOTICE of designation under Local Rule 3.05 - track 2. Signed by
Deputy <^lerk on 1/15/2019. (Attachments: # 1 Case Management""
Reprirt Form, # 2 Consent Letter and Form)(CKS) (Entered:
01/15/2019)

01/16/2019

7

MOTION for default judgment against Mark H. Mahon by Marguerite
Smith. (Attachments: # \ Affidavit, # 2 Exhibit)(AEJ) Motions referred to
Magistrate Judge Joel B. Toomey. (Entered: 01/17/2019)

https://ecf.flmd.cird 1 .dcn/cgi-bin/DktRpt.pl?607073398702511-L_1_0-1

1/18/2019

(

Page 1 of 3

Electronic Case Filing | U.S. District Court - Middle District of Florida

CLOSED, MAGAPP
U.S. District Court
Middle District of Florida (Jacksonville)

CIVIL DOCKET FOR CASE #: 3:19-cv-00161-BJD-JRK
Internal Use Only

Smith v. Wilkie
Assigned to: Judge Brian J. Davis
Referred to: Magistrate Judge James R. Klindt
Demand: $50,000
Cause: 28:1343 Violation of Civil Rights

Date Filed: 02/06/2019
Date Terminated: 07/25/2019
Jury Demand: Plaintiff
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: U.S. Government Defendant

Plaintiff
represented by Marguerite Smith
10522 Maidstone Cove Drive
Jacksonville, FL 32218
904-609-5779
PRO SE

Marguerite Smith

Ui

3 -J

28 f§ ,,
(3£§oe' L

V.
Defendant

5°°fc° IP
gtfcSfeJo

Robert Wilkie
Secretary of Veterans Affairs

represented by Sean Michael Powers
US Attorney's Office - FLM
Suite 700
300 N Hogan St
Jacksonville, FL 32202
904/301-6254
Fax: 904/301-6310
Email: sean.powers@usdoj.gov
LEAD ATTORNEY
A TTORNEY TO BE NOTICED

SSvSF'lP
Si
Uj O Zj p q

Z&OCO

UjO

£8 E9S;

tr Q
°
CC
Oc

3S
^

Defendant
Director Julianna Boor
Director, Department of Veterans
Administration St Petersburg Office: in her
individual personal capacity

Date Filed

represented by Sean Michael Powers
(See above for address)
LEAD ATTORNEY
ATTORNEY TO BE NOTICED

Docket Text

#

COMPLAINT against Robert Wilkie with Jury Demand filed by Marguerite Smith.
(Attachments: # I Exhibit A, # 2 Exhibit B, # 3 Exhibit C, # 4 Exhibit D, # 5 Exhibit E, # 6
Exhibit F, # 7 Exhibit G, # 8 Exhibit H)(PAM) (Additional attachment(s) added on 2/6/2019: #
9 Civil Cover Sheet) (PAM). (Entered: 02/06/2019)

02/06/2019

1

02/06/2019

2 -MOTION for leave to proceed in forma pauperis/affidavit of indigency (short form) by
Marguerite Smith. (PAM) Motions referred to Magistrate Judge James R. Klindt. (Entered:
02/06/2019)

02/08/2019

3

ORDER taking under advisement 2 The Application to Proceed in District Court Without
Prepaying Fees or Costs, construed as a Motion to Proceed In Forma Pauperis; on or
before 3/7/2019, Plaintiff shall complete the enclosed Application to Proceed in District
Court Without Prepaying Fees or Costs (Long Form) and file it with the Clerk of Court;
alternatively, Plaintiff may pay the $400 filing fee by 3/7/2019. Signed by Magistrate
Judge James R. Klindt on 2/8/2019. (Attachments: # 1 Application to Proceed in District

https://ecf.flmd.circl 1 .dcn/cgi-bm/DktRpt.pl?l 1668873336532-L_1_0-1

iu^sJQ

8/15/2019

03

)

£

Electronic Case Filing | U.S. District Court - Middle District of Florida

Page 2 of3

Court Without Prepaying Fees or Costs) (BHC) (Entered: 02/08/2019)
02/11/2019

4

MOTION for Leave to Proceed in forma pauperis by Marguerite Smith. (Attachments: # 1
Exhibit)(PAM) Motions referred to Magistrate Judge James R. Klindt. (Entered: 02/11/2019)

02/11/2019

5

AFFIDAVIT of indigency (long form) by Marguerite Smith. (PAM) Modified on 2/12/2019 to
edit text (PAM). (Entered: 02/11 /2019)

02/14/2019

6

ORDER taking under advisement the 2 Application to Proceed in District Court Without
Prepaying Fees or Costs (Short Form), 4 Motion to Proceed In Forma Pauperis, and the 5
Application to Proceed in District Court Without Prepaying Fees or Costs (Long Form),
construed collectively as a Motion to Proceed In Forma Pauperis; on or before 3/13/2019,
Plaintiff shall file an Amended Complaint consistent with this Order; as an alternative to
filing an Amended Complaint, Plaintiff may pay the $400 filing fee by 3/13/2019. Signed
by Magistrate Judge James R. Klindt on 2/14/2019. (BHC) (Entered: 02/14/2019)

03/04/2019

7

AMENDED COMPLAINT against Robert Wilkie with Jury Demand, filed by Marguerite
Smith. (Attachments: # i Exhibit 1, # 2 Exhibit 2, # 3 Exhibit 3, # 4 Exhibit 4, # 5 Exhibit 5, #
6 Exhibit 6, # 7 Exhibit 7, # 8 Exhibit 8, # 9 Exhibit 9, #10 Exhibit D, # U Exhibit E, # 12
Exhibit F, # 13 Exhibit G, # 14 Exhibit H) Related document: 1 Complaint filed by Marguerite
Smith.(AEJ) (Entered: 03/04/2019)

03/05/2019

'8 NOTICE of filing page 8 re 7 Amended Complaint by Marguerite Smith (PAM) (Entered:
03/05/2019)

03/05/2019

9

APPEAL of Magistrate Judge ruling to District Court (Titled: Plaintiffs Notice of a Non-Final
Order of Appeal/Interlocutory Appeal by Marguerite Smith re 6 Order on motion for leave to
proceed in forma pauperisOrder on motion for leave to proceed in forma pauperis/affidavit of
indigency (Attachments: # i Exhibit 1, # 2 Exhibit 2)(EAM) Modified text on 3/6/2019
(EAM). (Entered: 03/06/2019)

03/11/2019

10

ORDERED: Plaintiffs Notice of a Non-Final Order of Appeal/Interlocutory Appeal 9 is
premature and the Court will proceed with this case. Signed by Judge Brian J. Davis on
3/11/2019. (AMP) (Entered: 03/11/2019)
FEES paid by Marguerite Smith (Filing fee $400 receipt number JAX030364) (TMC) (Entered:
03/19/2019)

03/19/2019
03/20/2019

11

ORDER denying as moot 2 Application to Proceed in District Court Without Prepaying
Fees or Costs (Short Form), 4 Motion to Proceed In Forma Pauperis, and 5 Application to
Proceed in District Court Without Prepaying Fees or Costs (Long Form), construed
collectively as a Motion to Proceed In Forma Pauperis; Plaintiff shall have up to and
including 6/17/2019 to properly serve Defendants and file a certificate of service to that
effect. Signed by Magistrate Judge James R. Klindt on 3/20/2019. (BHC) (Entered:
03/20/2019)

03/20/2019

12

NOTICE of designation under Local Rule 3.05 - track 2. Signed by Deputy Clerk on
3/20/2019. (Attachments: # I Case Management Report Form, # 2 Consent Letter and
Form)(CKS) (Entered: 03/20/2019)

04/04/2019

13

SUMMONS issued as to Robert Wilkie (Only).(PAM) (Entered: 04/04/2019)

04/04/2019

14

SUMMONS issued as to U.S. Attorney and U.S. Attorney General. (AEJ) (Entered:
04/04/2019)

04/30/2019

15

SUMMONS returned executed US Attorney's Office served on 4/25/2019, answer due
6/24/2019. (PAM) (Entered: 04/30/2019)______________________________________ _

05/07/2019

16

NOTICE of pendency of related cases per Local Rule 1.04(d) by Robert Wilkie. Related case
(s): yes (Powers, Sean) (Entered: 05/07/2019)

06/04/2019

17

MOTION to Amend certificate of service dated May 7, 2019 by Marguerite Smith. (PAM)
(Entered: 06/04/2019)

https://ecf.flmd.circ 1 l.dcn/cgi-bm/DktRpt.pl?l 1668873336532-L_1_0-1

8/15/2019

V

Electronic Case Filing | U.S. District Court - Middle District of Florida

06/04/2019

Page 3 of 3

18 AFFIDAVIT in support of Federal Rules of Civil Procedure, R. .4 of Marguerite Smith re: 7
Amended Complaint by Marguerite Smith. (Attachments: # I Exhibit)(PAM) (Entered:
06/04/2019)

06/04/2019

19 SUMMONS returned executed by Marguerite Smith. Robert Wilkie served on 5/6/2019,
answer due 7/5/2019. (PAM) (Entered: 06/04/2019)

06/04/2019

20

PROOF of service on 5/6/19 as to the Attorney General ofthe United States by Marguerite
Smith (PAM) (Entered: 06/04/2019)

06/04/2019

21

SUMMONS returned executed by Marguerite Smith. U.S. Attorney served on 4/25/2019,
answer due 6/24/2019. (PAM) (Entered: 06/04/2019)

06/06/2019

22

OPPOSITION re 16 Notice of pendency of related cases by Marguerite Smith (Attachments: #
1 Exhibit)(PAM) (Entered: 06/06/2019)

06/10/2019

23

ORDER DENYING 22 Plaintiffs Opposition to the Defendant's Notice of Pendency of
Related Actions Dated 5/07/2019, construed as a motion for sanctions. Signed by Judge
Brian J. Davis on 6/10/2019. (AMP) (Entered: 06/10/2019)

06/17/2019

24

MOTION to Dismiss the order of the defendant's notice of pendency of related actions dated
05/07/2019 by Marguerite Smith. (Attachments: # 1 Exhibit)(PAM) (Entered: 06/17/2019)

06/18/2019

25 ORDER denying 17 Plaintiffs Motion to Amend Certificate of Service Dated May 7,
2019. Signed by Magistrate Judge James R. Klindt on 6/18/2019. (BHC) (Entered:
06/18/2019)

06/18/2019

26 ORDER directing that Plaintiff shall have up to and including 7/31/2019 to properly serve
Defendant Julianna Boor and file a certificate of service to that effect. Signed by
Magistrate Judge James R. Klindt on 6/18/2019. (BHC) (Entered: 06/18/2019)

06/24/2019

27

MOTION to Dismiss Amended Complaint by Robert Wilkie. (Powers, Sean) Modified on
6/24/2019 to edit filer (PAM). (Entered: 06/24/2019)

06/24/2019

2§

MOTION for miscellaneous relief, specifically for judicial notice of the FRE 201 Article II and
FRCP on the pleading by Marguerite Smith. (Attachments: # i Exhibit A)(PAM) Modified on
6/24/2019 to edit text (PAM). (Entered: 06/24/2019)

06/25/2019

29 ENDORSED ORDER: On or before July 12,2019, Plaintiff shall respond to 27 the United
States' Motion to Dismiss, or the Motion to Dismiss will be treated as unopposed. Signed
by Judge Brian J. Davis on 6/25/2019. (AMP) (Entered: 06/25/2019)

07/01/2019

30

07/08/2019

II MOTION to Dismiss Amended Complaint by Robert Wilkie. (Powers, Sean) (Entered:

MOTION to Strike 22 MOTION to Dismiss Amended Complaint by Marguerite Smith. (PAM)
Motions referred to Magistrate Judge James R. Klindt. Titled: Memorandum of Law thereof to
support.... (Entered: 07/01/2019)
07/08/2019)

07/12/2019

32

MOTION to Strike 31 MOTION to Dismiss Amended Complaint and MOTION for default
judgment by Marguerite Smith. (Attachments: # I Exhibit)(AEJ) Motions referred to
Magistrate Judge James R. Klindt. (Entered: 07/12/2019)

07/15/2019

33

RESPONSE to Motion re 32 MOTION to Strike 31 MOTION to Dismiss Amended Complaint
filed by Robert Wilkie. (Powers, Sean) (Entered: 07/15/2019)

07/15/2019

M MOTION for miscellaneous relief, specifically judicial notice by Marguerite Smith.
*

07/25/2019

(Attachments: # 1 Exhibit)(PAM) (Entered: 07/15/2019)

35 ORDER GRANTING 27 United States’ Motion to Dismiss. The Amended Complaint 7 is
DISMISSED WITH PREJUDICE. The Clerk is directed to TERMINATE pending
motions and CLOSE this case. Signed by Judge Brian J. Davis on 7/25/2019. (AMP)
(Entered: 07/25/2019)

https://ecf.flmd.cird 1 .dcn/cgi-bin/DktRpt.pl?l 1668873336532-L_l_0-.l

8/15/2019

Page 1 of 4

19-10942
y

£

4

General Docket
United States Court of Appeals for the Eleventh Circuit
Docketed: 03/13/2019

Court of Appeals Docket #: 19-10942
Nature of Suit: 3440 Other Civil Rights
Marguerite Smith v. Mark Mahon
Appeal From: Middle District of Florida
Fee Status: Fee Paid
Case Type Information:
1) Private Civil
2) Federal Question
3)-

Originating Court Information:
District: 113A-3 : 3:18-cv-01420-BJD-JBT
Civil Proceeding: Brian J. Davis, U.S. District Judge
Secondary Judge: Joel Barry Toomey, U.S. Magistrate Judge
Date Filed: 11/30/2018
Date NOA Filed:
03/13/2019
Prior Cases:
None
Current Cases:
None
MARGUERITE SMITH, widow
Plaintiff Appellant

Marguerite Smith
Direct: 904-609-5779
[NTC ProSe]
10522 MAIDSTONE COVE DR
JACKSONVILLE, FL 32218

versus
MARK H. MAHON, in his individual capacity
Defendant Appellee

MARGUERITE SMITH,
widow,
Plaintiff - Appellant,
versus

https://jenie.ao.dcn/call-ecf/cmecf/servlet/DktRpt7caseNum—19-10942&dateFrom—&date... 4/18/2019

Page 2 of 4

19-10942

Sf
JAY B. WATSON,
in his individual capacity,
Defendant,
MARKH. MAHON,
in Ms individual capacity,
Defendant - Appellee.

04/18/2019

04/09/2019

n

m ENTRY OF DISMISSAL: Pursuant to the 11th Cir.R. 42-2(c), fiiis appeal
" is DISMISSED for want of prosecution because the appellant Marguerite
2 pg, 12.78 KB
Smith failed to file an appendix within the time fixed by the rules [Entered:
04/18/2019 02:08 PM]
r-i

pal Briefing Notice issued to Appellant Marguerite Smith and Appellee Mark
H. Mahon. The appellants brief is due on or before 05/20/2019. The
2 pg, 17.7 KB
appendix is due no later than 7 days from the filing of the appellant's brief.
[Entered: 04/09/2019 02:27 PM]

04/09/2019

□

04/09/2019

n

04/08/2019

Motion to proceed in forma pauperis is MOOT due to file appellate paying
the filing fee f8739904-21 [Entered: 04/09/2019 11:15 AM]

[3 Appellate fee was paid on 04/04/2019 as to Appellant Marguerite Smith.
[Entered: 04/09/201911:00 AM]
1 pg, 10.8 KB r-j

fSJ Appellant's brief filed by Marguerite Smith. Service date: 04/02/2019.
“ [Entered: 04/12/2019 08:17 AM]
10 pg, 380.99 KB

04/04/2019

Jgl MOTION to proceed 1FPfiled by Appellant Marguerite Smith. Opposition
to Motion is Unknown [8739904-1] [Entered: 04/08/2019 03:23 PM]
38 pg, 3.02 MB

03/28/2019

gj NOTICE OF CD? FILING DEFICIENCY to Marguerite Smith. You are
" receiving this notice because you have not completed the Certificate of
lpg, 12.88 KB
Interested Persons (QP). Failure to comply with 11th Cir. Rules 26.1-1
through 26.1-4 may result in dismissal of the case or appeal under 11th Cir.
R. 42-1(b), return of deficient documents without action, or other sanctions
on counsel, the party, or both. [Entered: 03/28/2019 12:03 PM]

03/25/2019

□ (3 Appellant's Certificate of Interested Persons and Corporate Disclosure
i 330 47 KB Statement filed by Appellant Marguerite Smith. [Entered: 03/29/2019
'
03:01PM]

03/19/2019

r-j

q

n

(3 USDC order denying IFP as to Appellant Marguerite Smith was filed on
‘ 03/15/2019. Docket Entry 14. [Entered: 03/19/2019 10:49 AM]
3 pg, 402.03 KB

https://jenie.ao.dcn/cal l-ecfrcmecf/servlet/DktRpt?caseNum=19-10942&dateFrom=&date... 4/18/2019

Page 3 of 4

19-10942

i
03/13/2019

n

gg

13 pg, 1.69 MB

CIVIL APPEAL DOCKETED. Notice of appeal filed by Appellant
Marguerite Smith on 03/13/2019. Fee Status: IFP Pending. USDC motion
pending: Motion for leave to appeal in forma pauperis. No hearings to be
transcribed. Awaiting Appellant's Certificate of Interested Persons due on
or before 03/27/2019 as to Appellant Marguerite Smith. Awaiting
Appellee’s Certificate of Interested Persons due on or before 04/10/2019 as
to Appellee Mark H. Mahon [Entered: 03/14/2019 11:33 AM]

https://jenie.ao.dcn/cal 1 -ecf7cmecfiservlet/DktRpt?caseNum=19-10942&dateFrom=&date... 4/18/2019

Page 4 of 4

19-10942
^ :

Select All

Clear All

<S> Documents and Docket Report
O Documents and Docket Summary
O Documents Only
□ Include Page Numbers
Selected Size: 0 KB
Selected Pages: [0
Totals reflect accessible documents only and do not include unauthorized restricted documents.
View Selected

https://jenie.ao.dcn/cal l-ecf/cmecf7servlet/DktRpt?caseNum:=19-lO942&dateFr0m<,»&date,., 4/18/2010

Case: 19-13189

Date Filed: 04/03/2020

Page: 1 of 7

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-13189
Non-Argument Calendar

D.C. Docket No. 3:19-cv-00161-BJD-JRK

MARGUERITE SMITH,
Plaintiff - Appellant,
versus
SECRETARY OF VETERANS AFFAIRS,
JULIANNA BOOR,
Director, Department of Veterans Administration
St Petersburg Office: in her individual personal capacity,
Defendants - Appellees.

Appeal from the United States District Court
for the Middle District of Florida

(April 3, 2020)
Before WILSON, BRANCH, and ANDERSON, Circuit Judges
PER CURIAM:

Case: 19-13189

Date Filed: 04/03/2020

Page: 2 of 7

Marguerite Smith, proceeding pro se, appeals the district court’s dismissal
with prejudice of her complaint on the grounds that her claims failed to state a
claim and were barred by res judicata. The Secretary of Veterans Affairs has
moved for summary affirmance and to stay the briefing schedule.
Summary disposition is appropriate either where time is of the essence, such
as “situations where important public policy issues are involved or those where
rights delayed are rights denied,” or where “the position of one of the parties is
clearly right as a matter of law so that there can be no substantial question as to the
outcome of the case, or where, as is more frequently the case, the appeal is
frivolous.” Groendyke Transp., Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
An appeal is frivolous if it is “without arguable merit either in law or fact.” Napier
v. Preslicka, 314 F.3d 528, 531 (11th Cir. 2002).
We review de novo a district court’s grant of a motion to dismiss with
prejudice. Young Apartments, Inc. v. Town of Jupiter, FL, 529 F.3d 1027, 1037
(11th Cir. 2008). To prevent dismissal under Rule 12(b)(6), the plaintiff must allege
sufficient facts to state a claim for relief that is “plausible on its face.” Bell Atlantic
Corp. v. Twombly, 550 U.S. 544, 570 (2007). Claims are plausible when the plaintiff
pleads facts that allow the court “to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
Pro se pleadings are held to a less-strict standard than counseled pleadings and are
2

Case: 19-13189

Date Filed: 04/03/2020

Page: 3 of 7

liberally construed. Tannenbaum v. United States, 148 F.3d 1262, 1263 (11th Cir.
1998).
When ruling on a Rule 12(b)(6) motion to dismiss, the district court is
permitted to take judicial notice of public records without needing to convert the
motion into a motion for summary judgment, an action which would require that the
non-moving party receive notice of the movant’s submissions in order to address
their relevance. See Bryant v. Avado Brands, Inc., 187 F.3d 1271, 1276-78 (11th
Cir. 1999). Under Federal Rule of Evidence 201, the district court may take judicial
notice of a fact that is (1) generally known within the court’s jurisdiction, and (2)
can be accurately and readily determined from sources whose accuracy cannot
reasonably be questioned. Fed. R. Evid. 201.
Under the doctrine of res judicata, or claim preclusion, a claim is barred by a
prior suit if: “(1) there is a final judgment on the merits; (2) the decision was rendered
by a court of competent jurisdiction; (3) the parties ... are identical in both suits;
and (4) the same cause of action is involved in both cases.” Griswold v. Cnty. of
Hillsborough, 598 F.3d 1289, 1292 (11th Cir. 2010) (quotation omitted). Generally,
an order dismissing a complaint is not final and appealable unless the order holds
that it dismisses the entire action or that the complaint cannot be saved by
amendment. Garfield v. NDC Health Corp, 466 F.3d 1255, 1260 (11th Cir. 2006).
However, where a complaint is dismissed without prejudice and the plaintiff files an
3

Case: 19-13189

Date Filed: 04/03/2020

Page: 4 of 7

appeal instead of amending the complaint, the dismissal becomes final and
appealable and the plaintiff waives the right to later amend the complaint. Id. at
1260-61. Two cases are the same for purposes of res judicata “if a case arises out
of the same nucleus of operative facts, or is based upon the same factual predicate,
as a former action.” Griswold, 598 F.3d at 1293.
In Bivens v. Six Unknown Named Agents of Fed. Bureau of Narcotics, 403
U.S. 388 (1971), the Supreme Court held that injured plaintiffs could bring a cause
of action for damages against federal officers based on violations of their
constitutional rights. Id. at 395-96. We generally apply the same law to both Bivens
and 42 U.S.C. § 1983 cases. Abella v. Rubino, 63 F.3d 1063, 1065 (11th Cir. 1995).
However, the Supreme Court has held that “[government officials may not be held
liable [under Bivens] for the unconstitutional conduct of their subordinates under a
theory of respondeat superior.” Ashcroft v. Iqbal, 556 U.S. 662, 676 (2009).
As an initial matter, while the parties argue on appeal as if the district court
converted the motion to dismiss into a motion for summary judgment, the fact that
the district court looked at prior court records, which were referenced by the
Secretary in his motion to dismiss, did not require the court to convert the motion.
See Bryant, 187 F.3d at 1276-78. The district court implicitly took judicial notice of
Smith’s prior action because the prior orders were public record, known within the
trial court’s jurisdiction—as it was the court that issued the orders, and can be
4

Case: 19-13189

Date Filed: 04/03/2020

Page: 5 of 7

accurately and readily determined. See Fed. R. Evid. 201. However, even if the
district court erred in not converting the motion to dismiss into a motion for summary
judgment, such an error is harmless because Smith was already on notice of her prior
case, the district court gave her 17 days to respond to the Secretary’s motion, and
she responded. Additionally, although Smith’s complaint purports to bring a cause
of action under § 1983, because Smith is suing a federal officer, it is construed as a
claim brought pursuant to Bivens.
Here, there is no substantial question that Smith’s complaint is barred by res
judicata and that her complaint failed to state a claim. See Groendyke Transp., Inc.,
406 F.3d at 1162. First, despite the fact that Smith’s prior case was dismissed
without prejudice, the case constitutes a final judgment on the merits because Smith
waived her right to further amend her complaint by seeking to appeal the dismissal,
which we summarily affirmed, and because the district court’s dismissal was for
failure to state a claim. See Garfield, 466 F.3d at 1260-61. Further, Smith’s prior
case (1) involved the same parties—namely, Smith and the Secretary, and (2)
involved the same claim because both cases arise out of the same loan guarantee and
the alleged actions of VA employees in relation to that loan guarantee. (See doc. 27
at 1-4). Thus, Smith’s present complaint is barred by res judicata. See Griswold,
598 F.3d at 1292.

5

Case: 19-13189

Date Filed: 04/03/2020

Page: 6 of 7

Additionally, there is no substantial question that Smith’s complaint failed to
state a claim. Smith purported to sue the Secretary in his individual capacity, yet the
complaint never alleged actions that the Secretary himself committed, only referring
to the actions of VA employees in general. Even construing the complaint liberally,
as suing the Secretary in his official capacity, Smith has failed to state a claim
because government officials cannot be held liable for any unconstitutional conduct
by their subordinates under Bivens. Iqbal, 566 U.S. at 676. According, summary
affirmance is appropriate. See Groendyke Transp., Inc., 406 F.3d at 1162.
Moreover, the arguments raised by Smith in her appeal are frivolous because
they are without arguable merit in law or fact. See Napier, 314 F.3d at 531. First,
her argument that the Secretary was barred from obtaining summary judgment
because he failed to timely file an answer is meritless because the Secretary timely
filed a motion to dismiss and, thus, did not have to file an answer until 14 days after
the district court resolved his pending motion. Second, her argument that the district
court denied her procedural due process rights by failing to grant her a default
judgment is meritless because the Secretary was not in default, as he had filed a
timely motion to dismiss. Her third argument that the district court failed to give her
10 days’ notice is moot because the district court gave her 17 days to respond to the
Secretary’s dispositive motion, and she responded within 6 days. Lastly, Smith’s

6

Case: 19-13189

Date Filed: 04/03/2020

Page: 7 of 7

fourth argument is meritless because district courts do have the power to reverse
orders.
Therefore, because there is no substantial question that Smith’s complaint
fails to state a claim and is barred by res judicata, and because her arguments on
appeal are frivolous, we GRANT the appellees’ motion for summary affirmance.
See Groendyke Transp., Inc., 406 F.2d at 1162.

Accordingly, we DENY the

accompanying motion to stay the briefing schedule as moot.

7

.Case 3:19-cv-00l6l-BJD-JRK Document 35 Filed 07/25/19 Page 1 of 6 PagelD 257

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION
MARGUERITE SMITH,
Plaintiff,
v.

Case No. 3:19-cv-161-J-39JRK

ROBERT WILKIE, Secretary of
Veterans Affairs and JULIANNA BOOR,
Director, Department of Veterans
Administration St Petersburg Office: in
her individual personal capacity,
Defendants.
ORDER
THIS CAUSE is before the Court on the United States’ Motion to Dismiss (Doc.
27) and Plaintiffs Memorandum of Law Thereof to Support Plaintiffs Motion to Strike
Defendant’s Motion to Dismiss, construed as an opposition to the Motion to Dismiss (Doc.
30; Opposition). Plaintiff, preceding erg se, initiated this action by filing the Complaint
(Doc. 1) against Defendant, Secretary of Veterans Affairs for alleged violations of 42
U.S.C. § 1983. Plaintiff filed an Amended Complaint (Doc. 7) adding Defendant Julianna
Boor, Director of the Department of Veterans Administration St. Petersburg Office, for
alleged violations of 42 U.S.C. § 1983. See Am. Compl.
I.

4, 13, 19-20.

Standard of Law

Pursuant to Rule 12(b)(6), Federal Rules of Civil Procedure (“Rule(s)”), a district
court may dismiss a complaint for “failure to state a claim upon which relief can be
granted." When reviewing a motion to dismiss, the Court must take the complaint’s
allegations as true and construe them in the light most favorable to the plaintiff. Rivell v.

.Case 3:19-cv-00l6l-BJD-JRK Document 35 Filed 07/25/19 Page 2 of 6 PagelD 258

Private Health Care Svs.. Inc.. 520 F.3d 1308, 1309 (11th Cir. 2008). While the Court is
required to accept well-pleaded facts as true at this stage, it is not required to accept a
plaintiffs legal conclusions. Chandler v. Sec’v of Fla. Dep't of Transp.. 695 F.3d 1194,
1199 (11th Cir. 2012). It is insufficient for a plaintiffs complaint to put forth merely labels,
conclusions, and a formulaic recitation of the elements of the cause of action. Bell Atl
Coro, v. Twomblv. 550 U.S. 544,555 (2007). While a complaint’s factual allegations need
not be detailed, the complaint must still allege sufficient facts to render the claim plausible
on its face. Jd. at 570. "The plausibility standard is not akin to a "probability requirement,"
but it asks for more than a sheer possibility that a defendant has acted unlawfully.’” Moore
v. Gradv Mem’l Hoso. Coro.. 834 F.3d 1168, 1171 (11th Cir. 2016) (quoting Ashcroft v.
labal. 556 U.S. 662, 678 (2009)). "A claim has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Iqbal. 556 U.S. at 678.
'll.

Background

In December 2017, Plaintiff sued the Department of Veterans Affairs (the “VA”)
and the Director of the VA’s Regional Office in St. Petersburg, Florida—Julianna Boor.
See Smith v. Department of Veterans Affairs & Juliana Boor. Case No. 3:17-CV-1362HES-MCR (Doc. 1) (“Smith 1"). On May 30, 2018, the Honorable Harvey E. Schlesinger,
United States District Judge, granted the United States’ Motion to Dismiss for Lack of
Subject Matter Jurisdiction and Failure to State a Claim. (Doc. 17; Smith 11. Judge
Schlesinger permitted Plaintiff to file an amended complaint. See id. Plaintiff failed to
amend the complaint and instead appealed to the Eleventh Circuit. (Doc. 21; Smith 1).
On appeal, the Eleventh Circuit granted summary affirmance because Plaintiff failed to

-2-

.Case 3:19-cv-00161-BJD-JRK Document 35 Filed 07/25/19 Page 3 of 6 PagelD 259

show exhaustion of administrative remedies, failed to allege fraud with particularity, and
failed to state a Bivens1 claim against Boor. (Doc. 28 at 4-6; Smith 1). The Eleventh
Circuit described Plaintiffs appeal as “frivolous" four times, id at 5-8. On remand, Judge
Schlesinger directed the clerk to close the case. (Doc. 29; Smith 1). Plaintiff appealed a
second time, but the Eleventh Circuit dismissed that appeal for lack of jurisdiction and
because the appeal was duplicative. (Doc. 34; Smith 1).
While Plaintiffs second appeal in Smith 1 was pending, Plaintiff initiated the instant
case. After the appeal (Doc. 34; Smith 1). Plaintiff filed the Amended Complaint in this
case bringing a 42 U.S.C. § 1983 claim against VA employees for terminating on August
1, 1999 the loan guarantee secured by 9591 Villiers Drive South, Jacksonville, Florida
without notification of any claims or benefits. See Am. Compl. H 6. Plaintiff alleges that on
May 31, 2000, Plaintiff sold her home to Gail Rivers pursuant to a Conditional Sale
Agreement. See ]d U 22. Plaintiff alleges that Mrs. Rivers did not honor the Conditional
Sale Agreement and Plaintiffs home was fraudulently taken without the consent of the
VA. See jd

22-23. Plaintiff also alleges that after hiring an attorney, she filed a

foreclosure action against Mrs. Rivers, but “[d]ue to false documents filed into the lower
court from an improper probate of the deceased estate . . . Mrs. Rivers .

. sold the

property... to Williams J. Toller and Toni C. Toler [sic] in 2004 who also holds illegal title
of ownership .

Id 11 26. Plaintiff alleges that Mr. and Mrs. Toller "willfully and

intentionally sold the property to Irongate Holdings, LLC. from a Final Judgment... to
avoid prosecution against the deceased, Floyd A. Smith’s Gl Bill from [the VA]...." ]d

1 Bivens v. Six Unknown Named Agents of Fed. Bureau of Narcotics. 403 U.S. 388, 389
(1971).

•3-

.Case 3:19-cv-00161-BJD-JRK Document 35 Filed 07/25/19 Page 4 of 6 PagelD 260

Plaintiff requests that the Court “restore administration of the estate for misrepresentation
of a deceased ... and in punitive damages [in] the amount of $60,000,000....” Id at 78.
III.

Discussion

Defendant argues that the Court should dismiss the Amended Complaint because
the Eleventh Circuit determined that Plaintiffs appeal was frivolous, and Plaintiff should
not “be permitted a do-over for the same reasons articulated in Smith 1 and because res
judicata precludes any new claims,” See Motion at 1, 5-6. In Plaintiffs Opposition, she
merely cites various legal standards, requests “an oral argument to subpoena witness,”
argues that the Court should impose a $1,000,000.00 sanction against Assistant United
States Attorney Sean Powers, and argues that the Motion is moot. See generally Opp.
1-4.
The Court is mindful that Plaintiff is proceeding pro se but is nonetheless unable
to determine the precise cause or causes of action against Defendants. As the Court
previously found in Smith 1. Plaintiff again fails to state a cognizable claim against
Defendants despite at least four opportunities in two cases to do so. For the reasons
stated in Smith 1. (Doc. 17; Smith 11 and affirmed by the United States Court of Appeals
for the Eleventh Circuit (Docs. 28 and 34; Smith 1). the Amended Complaint is due to be
dismissed with prejudice.
The Amended Complaint is also due to be dismissed under the doctrine of res
judicata. “The doctrine of res judicata 'bars the filing of claims which were raised or could
have been raised in an earlier proceeding.’" Maldonado v. U.S. Attv. Gen.. 664 F.3d 1369,
1375 (11th Cir. 2011) (quoting Ragsdale v. Rubbermaid. Inc.. 193 F.3d 1235,1238 (11th

-4-

Case 3:19-cv-00161-BJD-JRK Document 35 Filed 07/25/19 Page 5 of 6 PagelD 261

Cir. 1999)). For res judicata to bar a subsequently filed case, the following four elements
must be present: “'(1) there is a final judgment on the merits; (2) the decision was
rendered by a court of competent jurisdiction; (3) the parties, or those in privity with them,
are identical in both suits; and (4) the same cause of action is involved in both cases.’” Id.
Satisfying elements one and two, Judge Schlesinger entered a final judgment in
Smith 1. See (Docs. 17 and 28; Smith 1). Regarding element three, the Court finds that
the parties in Smith 1 are effectively the same as, or are in privity with, the parties in this
case. Finally, element four is satisfied because in Smith 1 Plaintiff argues that the same
loan guarantee for a home located at 9591 Villiers Drive South, Jacksonville, Florida was
fraudulent. See (Doc. 1 U 5, Ex. A; Smith 1). While the cause or causes of action are not
clear in either Smith 1 or in the instant case, it appears that both cases surround the same
loan guarantee and a Bivens action for alleged constitutional violations. The Amended
Complaint is therefore due to be dismissed.2
Accordingly, after due consideration, it is
ORDERED:
1. The United States’ Motion to Dismiss (Doc. 27) is GRANTED.
2. The Amended Complaint (Doc. 7) is DISMISSED with prejudice.
3. The parties shall bear their own costs and attorneys’ fees.

2 To the extent that res judicata does not apply, the Amended Complaint is still due to be dismissed
for failure to state to a claim. Plaintiff was on notice of the deficiencies and has had at least four
opportunities to state a claim. Granting leave for further amendment in this case would be futile.
See Grider v. Cook. 522 F. App'x 544, 548 (11th Cir. 2013) (“Although agro se litigant must
generally be permitted to amend h[er] complaint, a district court need not allow amendment where
amendment would be futile, or in other words, still subject to dismissal." (citing Cockrell v. Sparks.
510 F.3d 1307,1310 (11th Cir. 2007)).

-5-

.Case 3:19-cv-00161-BJD-JRK Document 35 Filed 07/25/19 Page 6 of 6 PagelD 262

4. The Clerk of the Court is directed to TERMINATE any pending motions in
this matter and CLOSE this case.

+1r,

DONE and ORDERED in Jacksonville, Florida this Z5 day of July, 2019.

BRIAN J. DAVIS
United States District Judge

5
Copies furnished to:
Counsel of Record
Marguerite Smith
10522 Maidstone Cove Drive
Jacksonville, FL 32218

-6-

%

Case3:18-cv-01420-BJD-JBT Documents Filed 03/15/19 Page 1 of 3 PagelD127

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION
MARGUERITE SMITH, Widow,
:

Plaintiff,

Case No. 3:18-cv-1420-J-39JBT

v.
MARK H. MAHON, in his individual
capacity,
Defendant.
/

ORDER
THIS CAUSE is before the Court on Plaintiffs Motion for Permission to Appeal in
Forma Pauperis and Affidavit (Doc. 12; Motion for lFP). In the Motion for IFP, Plaintiff
requests permission to proceed in forma pauperis on appeal because she is unable to
pay the filing fees. See id
Federal Rule of Appellate Procedure 24(a)(1) requires the party requesting to
proceed in forma pauperis on appeal to file a motion in the district court. See also 28
U.S.C. 1915(a)(1) (requiring a person who seeks to appeal a case in forma pauperis to
^

-

'

..-lV

^

......

^ ,

....

•

*■' --x-r

- •

•» “

-

•

—*

" -•*'-**

-*■-

—

.•‘•1

-.in.*...

~■

-*•

include an affidavit describing “the nature of the action, defense or appeal and affiant’s
belief that the person is entitled to redress”). Additionally, the motion to proceed in forma
■

•

i*

pauperis must include a financial affidavit as provided in Form 4 of the Appendix of Forms
to the Federal Rules of Appellate Procedure. Fed. R. App. P. 24(a)(1)(A). An appeal is
\

not taken in good faith where the appellant fails to articulate a basis for the appeal.
Madura v. Lakebridae Condo. Ass'n. Inc.. No. 8:07CV02274-T-17EAJ, 2009 WL
1659444, at *2 (M.D. Fla. June 15,2009). When the basis of an appeal is given, the Court
f

I

i

‘y'

Case 3:18-cv-01420-BJD-JBT Document 14 Filed 03/15/19 Page 2 of 3 PagelD 128

looks to “whether, objectively speaking, there is any non-frivolous issue to be litigated on
appeal.” Kniaht v. Lane. No. CA 08-0301-KD-C, 2010 WL 1487806, at *2 (S.D. Alai. Apr.
7,2010) (internal quotations and citations omitted) report and recommendation adopted,
No. CIVA 08-0301-KD-C, 2010 WL 1487275 (S.D. Ala. Apr. 13, 2010). If there are not
!

any non-frivolous issues to be litigated on appeal, then the appeal is also not taken in
good faith. ]d.
In the Motion for IFF, Plaintiff sets forth the grounds upon which her appeal rests.
See Motion for IFP at 1 (Plaintiff “disagreefs] with all the ordered 2/25/2019 action by a
vexatious litigant"). The Court has reviewed Plaintiff’s Complaint (Doc. 1), Amsnded
Complaint (Doc. 4), and has set forth its reasoning for dismissing this case in its Order
dated February 25, 2019 (Doc. 10). The pertinent issues having been fully addressed in
I

the Court’s prior Orders (Docs. 3, 8, 10), the Court cannot now find that, objectively
t

speaking, there are any non-frivolous issues to be litigated on appeal.
Accordingly, after due consideration, it is
ORDERED:
1. Pursuant to 28 U.S.C. § 1915(a)(3), the Court certifies that this appeal is
not taken in good faith.

-

1

2. Plaintiff’s Motion for Permission to Appeal In Forma Pauperis and Affidavit
(Doc. 12) is DENIED.

j
l
3. The Clerk of Court is directed to Immediately notify the parties and the
|

United States Court of Appeals for the Eleventh Circuit that Plaintiffs appeal is no1: taken
in good faith.

-2-

*

Case 3: 18-cv-01420-B JD-JBT Document 14 Filed 03/15/19 Page 3 of 3 PagelD 129

4. Plaintiff shall pay the applicable appellate docketing and filing fees jt-.ithin
thirty (30) days of the date of this Order, or move to proceed in forma pauperis before the
Ii

Eleventh Circuit Court of Appeals.

, \s

DONE and ORDERED in Jacksonville, Florida this

i
j

•tw

!
;

day of March, 2019.

l!

BRIAN J. DAVIS
United States District Judge
•r

J

;

!>
:
;

va
Copies furnished to:
Counsel of Record
i

Marguerite Smith
10522 Maidstone Cove Drive
Jacksonville, FL 32218

i

-3-

^Electronic Case Filing | U.S. District Court - Middle District of Florida-Display Receipt

Page 1 of2

***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy
permits attorneys of record and parties in a case (including pro se litigants) to receive one free
electronic copy of all documents filed electronically, if receipt is required by law or directed by the
filer. PACER access fees apply to all other users. To avoid later charges, download a copy of each
document during this first viewing. However, if the referenced document is a transcript, the free
copy and 30 page limit do not apply.
U.S. District Court
Middle District of Florida

i

Notice of Electronic Filing
The following transaction was entered on 3/15/2019 at 5:20 PM EDT and filed on 3/15/2019
Smith v. Watson et al
Case Name:
3:18-cv-01420-BJD-JBT
Case Number:
Filer:
WARNING: CASE CLOSED on 02/25/2019
Document Number: 14

i

Docket Text:
ORDER DENYING [12] Plaintiffs Motion for Permission to Appeal In Forma Pauperis.
The Clerk is directed to immediately notify the parties and the United States Court of
Appeals for the Eleventh Circuit that Plaintiff's appeal is not taken in good faith. Within
30 days of the date of this Order, Plaintiff shall pay the applicable appellate docketing
and filing fees or move to proceed in forma pauperis before the Eleventh Circuit Court
of Appeals. Signed by Judge Brian J. Davis on 3/15/2019. (AMP)
3:18-cv-01420-BJD-JBT Notice has been electronically mailed to:
3:18-cv-01420-BJD-JBT Notice has been delivered by other means to:
Marguerite Smith
10522 Maidstone Cove Drive
Jacksonville, FL 32218
!
i

i
I

;

https://ecf.flmd.circll.dcn/cgi-bin/DisplayReceipt.pl7957960580006715-L_l_0-l

3/18/2019

Case 3:18-CV-01420-BJD-JBT Document 8 Filed 02/15/19 Page 1 of 4 PagelD 67

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
JACKSONVILLE DIVISION
MARGUERITE SMITH, Widow,
Plaintiff,
Case No. 3:18-cv-1420-J-39JBT

v.
MARK H. MAHON, in his individual
capacity,
Defendant.

ORDER TO SHOW CAUSE
THIS CAUSE is before the Court sua sponte. On October 30, 2018, Plaintiff
Marguerite Smith initiated this action by filing the Complaint (Doc. 1) against Defendants
Jay B. Watson and Mark H. Mahon the Chief Judge for the Fourth Judicial Circuit. On
December 3, 2018, the Court struck the Complaint as a shotgun pleading and directed
Plaintiff to file an amended complaint consistent with the Federal Rules of Civil Procedure
and the Local Rules for the Middle District of Florida. (Doc. 3). On December 11, 2018,
Plaintiff filed an Amended Complaint (Doc. 4) against Defendant Judge Mahon involving
claims pursuant to 42 U.S.C. § 1983. See Am. Compl. H1..
In the Amended Complaint, Plaintiff challenges a state court order (Doc. 4-1 at 813; Administrative Order) entered by Judge Mahon. See Am. Compl.

4-5. The

Administrative Order involved a real property transaction for property located at 9591
Villiers Drive South, Jacksonville, Florida 32221 (the "9591 Villiers Property”). See Admin
Order at 8. The Administrative Order declared Plaintiff a vexatious litigant and restricted

Case 3:18-cv-01420-BJD-JBT Document 8 Filed 02/15/19 Page 2 of 4 PagelD 68

her court filings. See Admin. Order at 12-13. In the Amended Complaint, Plaintiff states
that
the issue before this [C]ourt is United States Constitutional Tort that Mark
H. Mahon, in his individual capacity did intentionally, deliberately and
willfully violated the U.S. Constitutional Rights of the Fifth and Fourteenth
Amendments] of due process . . . [and] did not give Plaintiff ... the
opportunity to challenge the Administrative Order No. 2018-02 without
allowing Plaintiff a chance to reply to the order, or hearing, or a jury trial
before prohibiting her from the courts suddenly.
jd.

4. Plaintiff alleges that Judge Mahon is not entitled to immunity from prosecution.

See id. IT 5.
‘The Rooker-Feldman doctrine is a jurisdictional rule that precludes federal district
courts from exercising appellate jurisdiction over final state court judgments.” Macleod v.
Zambrano. No. 17-10673, 2019 WL 516495, at *1 (11th Cir. Feb. 11, 2019) (citing
Nicholson v. Shafe. 558 F.3d 1266, 1268 (11th Cir. 2009)) (unpublished). The doctrine
applies to "cases brought by state-court losers complaining of injuries caused by statecourt judgments rendered before the federal district court proceedings commenced and
inviting district court review and rejection of those judgments." Exxon Mobil Corp. v. Saudi
Basic Indus. Coro.. 544 U.S. 280, 281 (2005); see also Macleod, 2019 WL 516495 at *1
(affirming this Court's sua sponte dismissal of the plaintiffs § 1983 complaint against
Judge Zambrano for the lack of subject matter jurisdiction for claims involving the state
%

court’s order declaring the plaintiff a vexatious litigant and subjecting the plaintiffs filings
to various restrictions). The court in Macleod found that the plaintiff “had a ‘reasonable
opportunity to-bring his federal claim in state proceedings’ because, under the vexatious
litigant order, he was still allowed to file a claim in state court if he was represented by

-2-

Case 3:18-cv-01420-BJD-JBT Document 8 Filed 02/15/19 Page 3 of 4 PagelD 69

counsel and paid fees." Macleod. 2019 WL 516495 at *1 (quoting Casale v. Tillman. 558
F.3d 1258, 1260 (11th Cir. 2009)).
Similar to the state court order in Macleod. the Amended Complaint challenges the
Administrative Order declaring Plaintiff a vexatious litigant and subjecting Plaintiffs filings
to various restrictions. The Administrative Order permitted Plaintiff to file legitimate claims
in state court if she was represented by counsel, filed the appropriate recording or filing
fee, and obtained an order from the Chief Judge permitting the filing pursuant to Section
68.093(5), Florida Statutes.1 See Admin Order at 12-13. Plaintiff has not established that
the Court has subject matter jurisdiction over this action. In light of the foregoing and that
Plaintiff is proceeding erg se, Plaintiff will be given another opportunity to establish subject
matter jurisdiction.2

1 Section 68.093(5), Florida Statutes states the following:
The clerk of the court shall not file any new action by a vexatious litigant pro se
unless the vexatious litigant has obtained an order from the administrative judge
permitting such filing. If the clerk of the court mistakenly permits a vexatious litigant
to file an action pro se in contravention of a prefiling order, any party to that action
may file with the clerk and serve on the plaintiff and all other defendants a notice
stating that the plaintiff is a pro se vexatious litigant subject to a prefiling order. The
filing of such a notice shall automatically stay the litigation against all defendants
to the action. The administrative judge shall automatically dismiss the action with
prejudice within 10 days after the filing of such notice unless the plaintiff files a
motion for leave to file the action. If the administrative judge issues an order
permitting the action to be filed, the defendants need not plead or otherwise
respond to the complaint until 10 days after the date of service by the plaintiff, by
United States mail, of a copy of the order granting leave to file the action.
2 The Court reminds Plaintiff for the second time (see Doc. 3 at n.1) that though proceeding
pro se. she is still required to “‘conform to procedural rules.’” Rilev v. Fairbanks Capital Corp..
222 F.App’x 897, 898~(11th Cir. 2007) (quoting Loren v. Sasser. 309 F.3d 1296,1304 (11th Cir.
2002)). To assist unrepresented parties such as Plaintiff, the Court has added a section to its
. website designed to help gro se litigants, with a link entitled “Litigants Without Lawyers," which
Plaintiff may access under the "For Litigants" tab at the following address:
http://www.flmd.uscourts.gov. There, Plaintiff will find an overview of the litigation process and a
link to the Guide for Proceeding Without a Lawyer. The website also provides links to the Federal
Rules of Criminal Procedure and the Local Rules, and a link to the United States Court of Appeals
for the Eleventh Circuit.

-3-

Case 3:18-cv-01420-BJD-JBT Document 8 Filed 02/15/19 Page 4 of 4 PagelD 70

Accordingly, it is
ORDERED:
On or before March 1, 2019, Plaintiff shall SHOW CAUSE why this case should
not be dismissed for the lack of subject matter jurisdiction. If Plaintiff fails to respond, the
case may be dismissed without further notice.

vh

DONE and ORDERED in Jacksonville, Florida this

'*5 day of February, 2019.

:Q-£U—
BRIAN J. DAVIS
United States District Judge

5
Copies furnished to:
Counsel of Record
Marguerite Smith
10522 Maidstone Cove Drive
Jacksonville, FL 32218

-4-

Case: 19-13189

Date Filed: 07/14/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-13189-AA

MARGUERITE SMITH,
Plaintiff - Appellant,
versus
SECRETARY OF VETERANS AFFAIRS,
JULIANNA BOOR,
Director, Department of Veterans Administration
St Petersburg Office: in her individual personal capacity,
Defendants - Appellees.

Appeal from the United States District Court
for the Middle District of Florida

ON PETITIONtSJ FOR REHEARING AND PETITIONS FOR REHEARING EN BANC
BEFORE: WILSON, BRANCH, and ANDERSON, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

Case: 19-10942

Date Filed: 04/15/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-10942-DD
MARGUERITE SMITH,
widow,
Plaintiff - Appellant,
versus
JAY B. WATSON,
in his individual capacity,
Defendant,
MARK H. MAHON,
in his individual capacity,
Defendant - Appellee.

Appeal from the United States District Court
for the Middle District of Florida
Before: ED CARNES, Chief Judge, JORDAN, and TJOFLAT, Circuit Judges:
BY THE COURT:
The requests in Appellant’s filings docketed on April 3,2020 and April 6,2020 are
\

DENIED.

